U.S.P.S Tracking No.: EE 332 880 794 US

Record/FILE ON DEMAND

0-6159
IN THE
SUPREME COURT OF THE UNITED STATES
^P&cSInus:
Nelson L. Bruce, Petitioner,

FILED

SEP 21 m

v.

^^mCLERK

PENTAGON FEDERAL CREDIT UNION (PENFED), Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE UNITED STATES TO THE UNITED STATES
COURT OF APPEALS FOR THE FOURTH CIRCUIT CASE NO. 20-1183

PETITION FOR A WRIT OF CERTIORARI

Nelson L. Bruce, Propria Persona, Sui Juris
c/o 144 Pavilion Street
Summerville, South Carolina 29483
843-437-7901

*V

RECEIVED
SEP 2 2020

gaagassm

U.S.P.S Tracking No.: EE 332 880 794 US

QUESTIONS PRESENTED
1. Whether the agreement/contract presented before the court evidences an “arbitration
clause” (See...Doc. 75... Exhibits/Evidence Set - C- U.S. District Court Case No.:
2:17-cv-02170-BHH)?
2. Whether the lower court and the appeals court erred by overriding the
agreement/contract by claiming “there is no valid arbitration clause” and by ignoring the
delegation clause incorporated under the “Arbitration Clause” (See...Section III of the
agreement/contract filed on the record in district court Doc. 75, Exhibits/Evidence
Set - C) simply by stating “there is no applicable arbitration clause” to deny the
petitioner, the aggrieved party his right to compel arbitration and seek redress of
grievance?
3. Whether the lower court and appeals court erred by completely and willfully ignoring
the Federal Arbitration Act (FAA) as written, 9 U.S.C. § 2 which permits an agreement
in writing to be valid and enforceable when it involves commerce in fact and has a
provision delegating an arbitrator to settle by arbitration any controversy thereafter
arising out of such agreement/contract in writing, to submit to arbitration an existing
controversy arising out of such a contract, transaction, or refusal as the
agreement/contract clearly evidences (See...Section III of the agreement/contract
filed on the record in district court Doc. 75, Exhibits/Evidence Set - C)? Also
whether congress has already passed a private law which they decided evidenced by
their findings in section 2 of private bill No.: S -112/private law 114-31 (December 3,
2016) that agreements such as the one presented by the petitioner (See...Doc. 75...
Petitioners Motion to compel Arbitration, page 2 -3 and Exhibits/Evidence Set - CU.S. District Court Case No.: 2:17-cv-02170-BHH) is valid, binding on the parties,
contained an alternative dispute resolution clause that provided for arbitration as the
exclusive remedy for relief to the Parties, and the parties consented to arbitration?
4. Whether the lower court erred by denying Petitioner, Nelson L. Bruce his right to
redress of grievance by denying his motion to compel arbitration by failing to apply the
law as written, the FAA and recently confirmed by this U.S. Supreme court, a higher
court, in their recent decision which states, a court has no business weighing in on the
merits of the grievance’ by denying a party their right to redress of grievance, right to
arbitration when the petitioner has dully exercised his right to redress of grievance, right
to arbitration when the agreement is to submit all grievances to arbitration as the
exclusive remedy, any and all disputes, any controversy or claim arising out of or
relating in any way to this Agreement or with regard to its formation, interpretation or
breach, and any issues of substantive or procedural arbitrability (See...Doc. 75...
Exhibits/Evidence Set - C- U.S. District Court Case No.: 2:17-cv-02170-BHH)?
5. Whether the lower courts can override the U.S. Supreme court’s unanimous decisions,
which determined in 2019 that a court has no business determining whether the parties
entered into an agreement/contract in writing or if the agreement/contract is valid or not
when the agreement delegates these questions to an arbitrator evidenced by the
“Arbitration Clause” and is an arbitral issue and raises an arbitrability question, “Henry
Schein, Inc. v. Archer and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8,
2019) ”7
6. Whether jurisdiction once challenged must be proven on the record otherwise any
judgments or orders placed their after is void for want of jurisdiction?
Page 2 | 30

U.S.P.S Tracking No.: EE 332 880 794 US
TABLE OF CONTENTS
Page
Opinions below...................
5
Jurisdiction..........................
5
Statutory provision involved
5
Statement............................
6,7
A. Background...............................
.. 7, 8, 9
B. Otrher Background....................
. 9, 10, 11
C. Facts and procedural history......
11, 12, 13, 14, 15, 16
D. Reasons for granting the petition
.........16, 17
E. The lower court’s Decisions Conflicts with the Decisions of United States Supreme Court
.....17, 18, 19
F. The lower court’s Decisions Conflicts with the Decisions of Other courts ...........19, 20
G. The Decision Below Is Incorrect.............................................................. 21,22, 23,24
H. The Question Presented Are Important And A Recurring One That Warrants The Court’s
Review In This Case
24, 25, 26, 27
Remedy Sought................
.27
Conclusion........................
28
INDEX TO APPENDICES
29
Appendix A
Appendix B
Appendix C
Appendix D
Appendix E
Appendix F
TABLE OF AUTHORITIES
Cases:
14 Penn Plaza LLC v. Pyett, 556 U.S. 247, 270 (2009)
23,24
Advantage Assets, Inc. II v. Howell, 190 N.C. App. 443, 445-46, 663 S.E.2d 8, 9-10 (2008)
14
American Express Co. v. Italian Colors Restaurant, 570 U.S. 228 (2013)
... 21,26
AT&T Mobility LLC v. Concepcion, 563 U.S. 333, 344 (2011)................
10,21,26
Cases—continued:
AT&T Technologies, Inc. v. Communications Workers of America, 475 U.S.
643 (1986)...................................................................................................... 18,22, 23,24
Basso v. Utah Power & Light Co. 495 F 2d 906, 910 .................................... ........... 20, 21
Belnap v. Iasis Healthcare, 844 F.3d 1272 (10th Cir. 2017).........................
11
BG Group, PLC v. Republic of Argentina, 134 S. Ct. 1198 (2014)...............
10
Buckeye Check Cashing, Inc. v. Cardegna, 546 U.S. 440 (2006)..................
22
Chicago, Inc. v. Kaplan, 514 U.S. 938, 943-944 (1995)................................
10
Choice Hotels Int’l, Inc. v. Chewl’s Hospitality, Inc., 91 F. App’x 810, 814 (4th Cir. Dec. 17,
2003)...........................................................................................................
14
Cipolla v. Team Enterprises, LLC, No. 19-15964 (9th Cir. June 24, 2020)
16
CompuCredit Corp. v. Greenwood, 565 U.S. 95 (2012)............................
21
Dean Witter Reynolds, 470 U.S. at 217.....................................................
24
Dillon v. Dillon, 187 P 27..........................................................................
20
Page 3 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

Douglas, 757 F.3d at 468............................................................................................. 19, 23
13
EPIC SYSTEMS CORP. v. LEWIS, 2017......................................................................
First Options of Chicago, Inc. v. Kaplan, 514 U.S. 938 (1995)................................... . 10, 25
Gilmer v. Interstate/Johnson Lane Corp.,500 U.S. 20 (1991)......................................
9
Hagans v Lavine, 415 U. S. 533 ....................................................................................
19
Henry Schein, Inc. v. Archer and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8,
2019)
2, 5, 7, 9, 12, 13, 16, 17, 18, 23, 24, 26
Hidalgo v. Amateur Athletic Union of the United States, Inc., No. 1:19-cv-10545 (S.D.N.Y.
June 16, 2020)..................................................................................................................... 15
Hill Top Developers v. Holiday Pines Service Corp. 478 So. 2d. 368 (Fla 2nd DCA 1985)
20,21
Joyce v. U.S. 474 2D 21 ..............................................................................................
19
Joyce v. US, 474F2d215............................................................................................
20
Latana v. Hopper, 102 F. 2d 188; Chicago v. New York 37 FSupp. 150................... 19, 20
14
Longv. Silver, 248 F.3d 309 (4th Cir. 2001)..............................................................
Mainv. Thiboutot, 100S. Ct. 2502 (1980)................................................................... 20,21
Merritt v. Hunter, C.A. Kansas 170 F2d 739 .............................................................
20
Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth, Inc., 473 U.S. 614 (1985)......
9
Moses H. Cone Memorial Hospital v. Mercury Construction, 460 U.S. 1 (1983)......
9, 19
New Prime Inc. v. Oliveira, cert, granted, No. 17-340 (Feb. 26, 2018).....................
26
OLD WAYNE MUT. L. ASSOC, v. McDONOUGH, 204 U. S. 8, 27 S. Ct. 236 (1907)
19
Prima Paint Corp. v. Flood & Conklin Mfg. Co., 388 U.S. 395 (1967)
15
20
Re Application of Wyatt, 300 P. 132; Re Cavitt, 118 P2d 846 ...
6, 10, 16,21,22, 25
Rent-A-Center, West, Inc. v. Jackson, 561 U.S. 63, 68-69 (2010)
Rescue Army v. Municipal Court ofLos Angeles, 171 P2d 8; 331 US 549, 91 L. ed. 1666, 67
S.Ct. 1409
20
Rogers v. Swepi LP, 2018 WL 6444014 (6th Cir. Dec. 10, 2018)
16
Rosemond v. Lambert, 469 F2d 416...........................................
20
Cases—continued:
Smith v. Murray, 311 S. W.2d 591, 595 (Tenn.1958) ...............................................
Steelworkers v. American Mfg. Co., 363 U. S. 564, 568 (1960)...............................
Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp., 559 U.S. 662 (2010).......................
Stuck v. Medical Examiners 94 Ca 2d 751. 211 P2d 389 ........................................
Tick-Anen v. Harris & Harris, Ltd., 461 F.Supp.2d 863, 867,868 (E.D. Wis. 2006)
Wuestv. Wuest, 127 P2d 934, 937...........................................................................
Statutes:
Federal Arbitration Act, 9 U.S.C. 1-16

15
24

9
20

14
20

2, 6,9, 10, 12- 19, 22, 23,24, 26, 27

Other Supporting Laws Passed by Congress: (See...Appendix F)
Private Bill No.: S -112 and private law 114-31 (Passed December 3, 2016)

Page 4 | 30

2

U.S.P.S Tracking No.: EE 332 880 794 US

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner, Nelson L. Bruce respectfully prays that a writ of certiorari issue to
review and reverse the judgment below as it conflicts with the recent U.S. Supreme
Court’s Unanimous decision in Henry Schein, Inc. v. Archer and White Sales, Inc., No.
17-1272 (U.S. Sup. Ct. Jan. 8, 2019).
OPINION BET ,OW
The opinion of the U.S. Appeals Court for the Fourth Circuit appears at
Appendix - A to this petition. The court's opinion is an unpublished opinion
reaffirmed and decided on May 22,2020.
JURISDICTION
The judgment of the court of appeals was decided on May 22, 2020, and denied
June 23,2020 when the “rehearing en banc” was denied with a formal mandate issued
and effective as of July 1, 2020. The jurisdiction of this Court is invoked under 28 U.S.C.
1254(1).
STATUTORY PROVISION INVOLVED
Section 2 of the Federal Arbitration Act, 9 U.S.C. 2, provides:
A written provision in any maritime transaction or a contract evidencing a
transaction involving commerce to settle by arbitration a controversy thereafter arising out
of such contract or transaction, or the refusal to perform the whole or any part thereof, or
an agreement in writing to submit to arbitration an existing controversy arising out of such
a contract, transaction, or refusal, shall be valid, irrevocable, and enforceable, save upon
Page 5 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

such grounds as exist at law or in equity for the revocation of any contract.
STATEMENT
7.

This case presents a recognized and vitally important circuit conflict

concerning the interpretation of the Federal Arbitration Act (FAA). Under the FAA,
“parties can agree to arbitrate ‘gateway’ questions of ‘arbitrability,’ such as whether the
parties have agreed to arbitrate or whether their agreement covers a particular
controversy.” Rent-A-Center, West, Inc. v. Jackson, 561 U.S. 63, 68-69 (2010). This
Court has held that “[a]n agreement to arbitrate a gateway issue is simply an additional,
antecedent agreement the party seeking arbitration asks the federal court to enforce, and
the FAA operates on this additional arbitration agreement just as it does on any other.” Id.
at 70. The questions presented are: (1) Whether the FAA permits a court to decline to
enforce an agreement delegating questions of arbitrability to an arbitrator which in part
states “any controversy or claim arising out of or relating in any way to the Agreement or
with regard to its formation, interpretation or breach, and any issues of substantive or
procedural arbitrability shall be settled by arbitration”; (2) Whether the FAA permits a
court to completely override the “ARBITRATION CLAUSE” in a written
agreement/contract its terms and provisions by stating in their own opinion, “there is no
applicable arbitration clause”, when the referenced agreement/contract clearly evidences
an applicable Arbitration Clause; (3) Whether the lower court applied the FAA as
written when denying the petitioners his right to redress of grievance, his right to
arbitration; (4) Whether the lower courts can override the U.S. Supreme court’s
unanimous decisions, which they determined in 2019 that a court has no business
determining whether the parties entered into an agreement/contract in writing or if the
agreement/contract is valid or not when the agreement “delegates” (the delegation clause
Page 6 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

of the contract') these questions to an arbitrator evidenced by the “Arbitration Clause” and
is an arbitral issue and raises an arbitrability question, “Henry Schein, Inc. v. Archer and
White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8, 2019)”; (5) Whether jurisdiction
once challenged must be proven on the record otherwise any judgments or orders placed
their after are void for want of jurisdiction.
Respondent has a relationship and duty to respond to the petitioner which they
have agreed to by default. Respondents are in default and in breach of the agreement
which invoked tacit acquiescence, their consent to the agreement/contract, its terms and
provisions and to arbitration which is only applicable upon a parties (the respondents)
default and their conduct (a failure to respond with specificities and facts and conclusions
of common law, and or to provide the requested information and documentation that is
necessary and in support of the agreement shall constitute a failure and a deliberate and
intentional refusal to respond and as a result thereby and or therein, expressing the
defaulting party’s consent and agreement to said facts) of remaining silent (tacit
acquiescence) which is a performance of a provision of the contract, which there is
evidence of (See...Doc. 75... Exhibits/Evidence Set - C and D, U.S. District Court
Case No.: 2:17-cv-02170-BHH). The agreement required the Petitioner to arbitrate any
controversy or claim arising out of or relating in any way to the Agreement or with regard
to its formation, interpretation or breach, and any issues of substantive or procedural
arbitrability. United States Federal District Court for the district of South Carolina,
Charleston Division, ignored and violated all petitioners’ rights to arbitration, and
provided an unauthorized judicial interference with the arbitration agreement, an override
of the performance agreement/contract.
A. BACKGROUND
Page 7 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

Petitioner originally filed a complaint in U.S. District Court for the District of
South Carolina, Charleston Division (2:17-cv-02170-BHH Bruce v. Pentagon Federal
Credit Union), which was dismissed with prejudice on 9/19/2018. On 9/26/2018
Petitioner filed a notice of appeal. On or about 4/23/2019, the appeal was denied. While
the case was in appeal status, the petitioner presented an counter offer/offer to the
respondents (the defendant) and other parties with a conditional acceptance for the value
agreement, conditionally accepting their offer and claims upon proof of claim to avoid any
further controversy in regards to that current appealed case to in good faith try to resolve
this matter. The respondents entered into this performance agreement/contract whereby
the respondents admitted to the proofs of claims and averments presented in the
agreement/contract by their default as they hold a duty to the Petitioner to respond.
Petitioner simultaneously move the court with a motion to vacate/Motion to set aside
judgment and Petition to compel arbitration/stay the proceedings as it related to that
agreement/contract based off of this newly admitted information, citing the provisions in
the parties’ arbitration agreements delegating questions of arbitrability to an arbitrator. On
5/1/2019 Petitioner filed a motion to vacate/Set Aside Judgment/Order along with new
evidence and a motion to compel arbitration. On 5/3/2019, District Court placed an order
denying the motion to vacate/set aside judgment/order and the motion to compel. On
5/13/2019 Petitioner filed a Notice of Appeal. On July 18, 2019 the Appeals court for the
fourth circuit denied petitioners appeal and rehearing en banc on August 26, 2019
affirming the district court’s decision. On 12/16/2019, petitioner filed a Motion to Vacate
Judgment/Order in U.S. District Court for the District of South Carolina based off of void
judgment and the district courts abuse of power. On 1/29/2020 District Court denied
petitioners motion to Vacate Judgment/Order (See Appendix - B). On 2/19/2020

Page 8 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

petitioner filed a notice of appeal. On 5/22/2020, the appeal was denied and on 6/23/2020
the rehearing en banc was denied affirming the U.S. District Courts decision. The court of
appeals’ decision and the U.S. Federal District Court decisions conflicts with this courts
recent unanimous decision by the U.S. Supreme Court in Henry Schein, Inc. v. Archer
and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8, 2019) and these courts
continue to neglect the plain statute of the FAA’s text or with its “primary purpose”:
namely, to “ensure that private agreements to arbitrate are enforced according to their
terms.” Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp., 559 U.S. 662, 682 (2010)
(internal quotation marks and citations omitted). As it has in many other recent cases,
this Court should grant certiorari to correct the lower courts’ and the appeal court for the
fourth circuit unpublished opinion, neglect and plain ignorance of the FAA and the United
States Supreme Courts precedent and reaffirm the “emphatic United States Supreme Court
unanimous precedent and federal policy in favor of arbitral dispute resolution.” Henry
Schein, Inc. v. Archer and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8,2019)
and Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth, Inc., 473 U.S. 614, 631
(1985).
B. Other Background
Congress enacted the FAA almost a century ago to “reverse the longstanding judicial
hostility to arbitration agreements.” Gilmer v. Interstate/Johnson Lane Corp., 500 U.S. 20,
24 (1991). Section 2 of the FAA—the Act’s “primary substantive provision,” Moses H.
Cone Memorial Hospital v. Mercury Construction, 460 U.S. 1,24 (1983)—guarantees that
“[a] written provision in a contract evidencing a transaction involving commerce to settle by
arbitration a controversy thereafter rising out of such contract shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or in equity for the revocation of any

Page 9 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

contract.” 9 U.S.C. 2. Section 2 reflects “both a liberal federal policy favoring arbitration
and the fundamental principle that arbitration is a matter of contract.” AT&T Mobility LLC
v. Concepcion, 563 U.S. 333,339 (2011). Section 2 of the FAA requires courts to “place
arbitration agreements on an equal footing with other contracts and enforce them according
to their terms.” Rent-A-Center, 561 U.S. at 67. The FAA’s command that courts rigorously
enforce agreements to arbitrate according to their terms applies in disputes over “gateway”
issues, such as whether a particular claim falls within the scope of the arbitration provision or
whether a non-signatory to the agreement is required to participate in arbitration. Id. at 69.
And it applies to disputes over an equally important antecedent question: who decides such
gateway issues, the court or the arbitrator? See First Options of Chicago, Inc. v. Kaplan,
514 U.S. 938, 943-944 (1995). Although courts, not arbitrators, presumptively resolve
gateway disputes, parties may supersede that general rule by “clearly and
unmistakably” agreeing to “arbitrate arbitrability.” First Options, 514 U.S. at 943. One
way for parties to accomplish that result is by including a so-called “delegation provision”
in their arbitration agreement as is the case here. A delegation provision is “simply an
additional, antecedent agreement the party seeking arbitration asks the federal court to
enforce, and the FAA operates on this additional arbitration agreement just as it does on any
other.” Rent-A-Center, 561 U.S. at 70. When parties include such a provision in their
arbitration agreement, the delegation of authority to the arbitrator applies to virtually all
gateway disputes, including disputes over “whether their agreement covers a particular
controversy.” Id. at 68-69; see BG Group, PLC v. Republic ofArgentina, 134 S. Ct. 1198,
1206 (2014).

A contract need not contain an express delegation provision to “clearly and unmistakably”
delegate arbitrability questions to an arbitrator. As every court of appeals to consider the
Page 10 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

question has held, an agreement incorporating rules that themselves delegate arbitrability to
the arbitrator, like the rules of the American Arbitration Association (AAA), provides the
requisite clear and unmistakable delegation. See, e.g., Belnap v. Iasis Healthcare, 844 F.3d
1272,1283-1284 (10th Cir. 2017).

C. Facts And Procedural History
1. In 2017, Petitioner filed a verified complaint/petition in the United States District Court
for the District of South Carolina, before any new agreements with an arbitration clause
was presented. The original complaint sought “hundreds of thousands of dollars” in
damages stemming from petitioners’ claims for damages against the respondent for
violating the law and trying to deprive the petitioner from his property rights without
consideration, for willfully concealing fraud and failing to fully disclose the full nature of
the alleged loan to the Petitioner.

2. On or about September 19, 2018 the United States District Court for the District of South
Carolina dismissed the petitioner’s complaint with prejudice whereby the petitioner filed
an appeal. While this appeal was pending before the United States Appeal Court for the
Fourth Circuit, petitioner presented the respondents with an offer in the form of a
conditional acceptance for the value self-executing performance agreement which has an
arbitration clause which the respondents entered into by their performance/conduct, their
documented default, tacit acquiescence in accords with the agreements terms and
provisions for their failure to respond and reject the offer within the 10-20 calendar day
rejection period as they have and hold a duty to respond and willfully chose not to
respond thereby expressing their implied consent and acceptance to the agreement, its

Page 11 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

terms and provisions as the respondents had the opportunity to reject this offer but have
failed to do so and they have no evidence that shows otherwise.
3. Petitioners moved to vacate the judgment and to compel arbitration/stay the proceedings
and the already admitted to claims by the respondent as they relate to the agreement; see
9 U.S.C. 4. Petitioners’ motions were based on respondent’s agreements referencing an
arbitration clause, and delegated all claims and controversies for the arbitrator to
decide, not the court, See...Doc. 74 and 75... U.S. District Court Case No.: 2:17-cv02170-BHH.
4. On May 3, 2019, the district court denied the motions stating that “the Rule 60 motion is
rambling an incoherent, and has no basis in fact, that the parties have not entered into the
agreement/contract and addendum that Plaintiff represents, and there is no applicable
arbitration clause” improperly entered by Judge Bruce Howe Hendricks. Explicitly
interpreting the “[sjcope of [the] [arbitration [cjlause and whether the parties entered
into an agreement which is a controversy that has been delegated to an arbitrator to
decide, not the court which is an arbitrable issue which is an exception authorized under
the FAA statute section 2. The judge on behalf of the court ignores the statute as
written and supported by this courts, the United States Supreme Court precedent in
Henry Schein, Inc. v. Archer and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8,
2019) thereby failing to abide by the law as written and violating the petitioners rights to
redress of grievance, to arbitrate the matter as it relates to the agreement.
5. Petitioners filed an appeal against the judges’ denial, and the court of appeals affirmed in
an unpublished opinion which are not a binding precedent on August 26, 2019. The court
of appeals based its decision solely on the judge’s improper opinions in regards to Rule
60(b) only. The Appeals court did not specifically address the petitioner’s motion to

Page 12 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

compel/motion to stay proceedings but claims they affirm the decision by the district
court in Bruce v. Pentagon Fed. Credit Union, No. 2:17-cv-02170-BHH (D.S.C. May
3, 2019) but not addressing the issue of arbitrability to the arbitrator.” The court of
appeals never considered whether to compel arbitration based on the existence of a
delegation provision in the parties’ arbitration agreement. In this case, petitioners argued
to the court of appeals that Specifically, As prescribed by law and supported by this U.S.
Supreme Court, a contract is valid and enforceable when it involves commerce in fact,
has an arbitration clause which delegates the validity of the agreement/contract, any and
all disputes, claims and controversies as it relates to the agreement/contract for an
arbitrator to decide which is the case here and the courts have no business in the matter’,
Henry Schein, Inc. v. Archer and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8,
2019), “and that courts must respect the parties’ decision in their agreement/contracts to
delegate the arbitrability question to the arbitration panel.” But the lower court rejected
that argument and the appeals court affirmed the district court’s May 3, 2019 decision.
The district court went on to determine, based on its own interpretation of “the four
comers of the agreement/contract with an text order,” (See Appendix - C), stating that
“the parties did not enter into an agreement and there is no applicable arbitration clause”
and the appeals court affirmed. The District Court and Court of Appeals reached that
conclusion despite the unanimous decision and precedent of this court in Henry Schein,
Inc. v. Archer and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8, 2019).
6. It has also been decided by the opinion of Justice GORSUCH who stated that as a matter
of law the answer is clear. In the Federal Arbitration Act, Congress has instructed federal
courts to enforce arbitration agreements according to their terms. (U.S. Supreme Court,
EPIC SYSTEMS CORP. v. LEWIS, 2017). The FAA will apply - regardless of whether

Page 13 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

you proceed in state or federal court - so long as the underlying contract providing for
arbitration evidences a transaction involving interstate commerce. Advantage Assets,
Inc. II v. Howell, 190 N.C. App. 443, 445-^6, 663 S.E.2d 8, 9-10 (2008); see Choice
Hotels Inti, Inc. v. ChewVs Hospitality, Inc., 91 F. App’x 810, 814 (4th Cir. Dec. 17,
2003).
7. In Long v. Silver, 248 F.3d 309 (4th Cir. 2001), a claim falls within the scope of an
arbitration clause if it is encompassed by the language of the clause or if a "significant
relationship" exists between the claim and the contract which is the case here.
8. There is no evidence produced by the respondents that evidences a rejection of the offer
and or that they do not accept the offer, the performance agreement/contract, its terms
and provisions. Respondents have not rejected the offer, the agreement/contract in the
10-20 calendar day rejection period incorporated in the contract under the arbitration
clause. The Respondents in this action agreed to mediate (arbitrate) by failing to properly
notify (respond) of their lack of acceptance ... that the language in the performance
contract indicated a change in the terms was an offer... which was accepted by the
opposing parties performance/conduct/tacit acquiescence which constituted acceptance of
the agreement/contract, see..." Tick-Anen v. Harris & Harris, Ltd., 461 F.Supp.ld 863,
867,868 (E.D. Wis. 2006). Therefore the unilateral performance agreement/contract is
valid and enforceable as the FAA prescribes as it involves commerce in fact (9 U.S.C. §
2), which is a decision delegated for an arbitrator to decide not the courts. The
respondents in this case have had sufficient “reasonable notice” of the offer, its terms and
provision contained within the offer, the performance agreement/contract and have failed
to reject it within the 10-20 calendar days allowed which would have imply nonacceptance, thereby there is now implied acceptance to the agreement, its terms and

Page 14 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

provisions, and therefore the arbitration agreement is valid and enforceable as it involves
commerce in fact. See...Hidalgo v. Amateur Athletic Union of the United States, Inc.,
No. l:19-cv-10545 (S.D.N.Y. June 16, 2020). The respondents did not even claim they
did not understand the offer and therefore they understood its terms and provisions and
have accepted them.
9. Silence or inaction generally does not constitute acceptance of an offer, unless the
circumstances indicate that such an inference of assent is warranted. Smith v. Murray,
311 S.W.2d 591, 595 (Tenn.1958). In this instance the acceptance, the doctrine of
Estoppel is in accordance with the terms of the agreement i.e. indicated in the terms of
the offer. The respondent’s actual conduct and performance constituted acceptance of
the petitioners offer as the respondents were given a reasonable opportunity to respond
and reject/disaffirm the agreement and failed to do so in the 10-20 calendar day rejection
period as they were given an additional 3 days (72 hours) Notice with a notice of fault
opportunity to cure and notice that they would be in default as the law requires (See...
Exhibits/Evidence Set - C and D filed on the record in district court Doc. 75) and the
contract requires and respondents still failed to reject the offer thereby expressing the
defaulting party’s implied consent and agreement to the contract, its terms an provisions
as expressed under the “Arbitration Clause” of the contract.
10. Under the FAA, an arbitration clause is separable from the contract in which it is
embedded and the issue of its validity is distinct from the substantive validity of the
contract as a whole. Prima Paint Corp. v. Flood & Conklin Mfg. Co., 388 U.S. 395
(1967). The U.S. Supreme Court has held, since Prima Paint Corp. v. Flood & Conklin
Mfg. Co., 388 U.S. 395 (1967), that courts must enforce arbitration clauses within
contracts, even if the entire contract is invalid or unenforceable. The arbitration clause

Page 15 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

clearly and unmistakably delegated questions of validity and any and all disputes relating
to the agreement/contract to an arbitrator. Two courts recently had an opportunity to
remind litigants of the severability doctrine. In Rogers v. Swepi LP, 2018 WL 6444014
(6th Cir. Dec. 10, 2018), the Sixth Circuit reversed a district court judge who failed to
apply the severability doctrine. These two doctrines—the separability doctrine and the
delegation doctrine—operated together as Justice Antonin Scalia wrote for the majority,
uniting them in the case of Rent-A-Center, West v. Jackson, 561 U.S. 63 (2010). In
Cipolla v. Team Enterprises, LLC, No. 19-15964 (9th Cir. June 24,2020) - Ninth
Circuit Remands Order Denying Motion to Compel Arbitration That Failed to Address
the Effect of Delegation Clause in Parties’ Arbitration Agreement.

D. REASONS FOR GRANTING THE PETITION
This case presents a straightforward conflict among the courts and courts of appeals
on an important and frequently recurring question involving the FAA which has already been
recently decided unanimously by the united states supreme court in Henry Schein, Inc. v.
Archer and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8, 2019) but the courts fail
to apply and looks to be overruling. There is an entrenched conflict on the question whether
the FAA permits a court to decline to enforce an agreement delegating questions of
arbitrability to an arbitrator if the court concludes the claim of arbitrability as it relates to the
agreement/contract, the arbitration clause being inapplicable and whether the parties entered
into the agreement. The Court’s precedents, disputes about arbitrability must be decided by
an arbitrator whenever the parties have delegated that issue to an arbitrator, regardless of the
court’s views about the merits of the arbitrability issue. The lower court is assuming they
have the authority to overrule what the U.S. Supreme has already decided by failing to apply
the decision in “Henry Schein, Inc. v. Archer and White Sales, Inc., No. 17-1272 (U.S.
Page 16 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

Sup. Ct. Jan. 8, 2019)” and the U.S. Court of Appeals for the Fourth Circuit is Affirming
their improper actions. The case also presents a straightforward conflict among the courts
and court of appeals frequently recurring question involving a courts abuse of power
continuously overruling the FAA as written and the above U.S. Supreme Court unanimous
recent decisions, that jurisdiction once challenged must be proven on the record otherwise
any judgments or orders placed their after are void for want of jurisdiction. The petition for
a writ of certiorari should therefore be granted.

E. The lower court’s Decisions Conflicts with the Decisions Of
United States Supreme Court
The district court and the court of appeals’ decisions is a conflict which has already
been recently decided unanimously by the united states supreme court in Henry Schein, Inc.
v. Archer and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8, 2019).

11. The petitioner moved to compel arbitration and to stay the litigation, citing an arbitration
provision in the parties’ agreement concerning which affect any and all pending
litigations. The district court had erred in believing that it had the authority to rule on the
arbitrability questions and controversies of the parties’ agreement itself which has been
delegated to the chosen arbitrator/arbitration association as provided by the Arbitration
Clause. (See...Doc. 75... Exhibits/Evidence Set - C- U.S. District Court Case No.:
2:17-cv-02170-BHH). The Federal Circuit had no power to override the
agreement/contract and decide the arbitrability under the parties’ agreement.” The
Plaintiff sought to compel arbitration based on a provision requiring arbitration of “[a]ny
controversy and/or claim arising out of th[e] agreement.” See...Doc. 75...
Exhibits/Evidence Set - C- U.S. District Court Case No.: 2:17-cv-02170-BHH. The
district court denied the Plaintiffs’ motion, and the Fourth Circuit affirmed.
Page 17 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

See... Appendix A. The arbitrability of the claims related to the party’s arbitration
agreement was expressly delegated to an arbitrator, not the court. This delegation applies
only to claims that are at least arguably covered by the agreement. The Supreme Court
precedent” holds that, “in deciding whether the parties have agreed to submit a particular
grievance to arbitration, a court is not to rule on the potential merits of the underlying
claims.” (quoting A T&T Technologies, Inc. v. Communications Workers ofAmerica,
475 U.S. 643, 649 (1986)).
12. The preceding decisions of the District Court and the Appeal Court Fourth Circuit,
conflicts with the FAA and the decisions of the precedent of the United States Supreme
Court. In Henry Schein, Inc. v. Archer and White Sales, Inc., No. 17-1272 (U.S. Sup.
Ct. Jan. 8, 2019), the U.S. Supreme Court vacated the Appeals Court judgment and
remanded the case for further proceedings consistent with the court’s opinion. See
JUSTICE Kavanaugh J. Opinion delivered January 8,2019 in Henry Schein, Inc. v.
Archer and White Sales, Inc., No. 17-1272. The plaintiff “urge[d]” the District Court
and Appeals Court to reconsider their opinions based off of the above unanimous
decision by the Supreme Court but the courts continued to ignore these facts and overrule
this court’s decision and further denied the Plaintiff his rights to redress of grievance, his
rights to arbitrate the matter before an arbitrator/arbitration association. The Supreme
/

Court’s arbitration decisions— in particular, with the Court’s express instruction that
when parties have agreed to submit an issue to arbitration, courts must compel that issue
to arbitration without regard to its merits.” Ibid. Reviewing this Court’s decisions, the
Supreme Court explained that the Court had “made clear that when parties agree to
submit an issue to arbitration, courts are bound to effectuate the parties’ intent by
compelling arbitration—no matter what the court thinks about the merits of the issue.”

Page 18 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

The District Court and Appeals Courts decisions “runs against the Supreme Court’s
unambiguous instruction that lower courts may not ‘delve into the merits of the dispute.’
(quoting Douglas, 757 F.3d at 468 (Dennis, J., dissenting)). The U.S. Supreme Court
observed that enforcing delegation provisions without regard to the merits of the
underlying dispute was “altogether consonant with the FAA’s ‘liberal federal policy
favoring arbitration agreements’ ” and its “overarching purpose” of “ensuring] the
enforcement of arbitration agreements according to their terms.” (quoting Moses H.
Cone, 460 U.S. at 24, and AT&T Mobility, 563 U.S. at 344).
13. There can be little doubt that there is a substantial circuit conflict on the questions
presented, or that the questions is ripe for the Court’s review. Unanimous Decisions
recently decided from the U.S. Supreme Court have fully developed the relevant
arguments on both sides of the question. And given the depth of the conflict, there is no
realistic prospect that it will resolve itself without the Court’s intervention. Further
review is therefore warranted.

F. The lower court’s Decisions Conflicts with the Decisions Of
Other courts
The law requires proof of jurisdiction to appear on the record of the administrative
agency and all administrative proceedings." Hagans v Lavine, 415 U. S. 533. "A court
cannot confer jurisdiction where none existed and cannot make a void proceeding valid. It is
clear and well established law that a void order can be challenged in any court" OLD
WAYNEMUT. L. ASSOC, v. McDONOUGH, 204 U. S. 8, 27S. Ct. 236 (1907). "There is
no discretion to ignore lack of jurisdiction." Joyce v. U.S. 474 2D 27. "Court must prove on
the record, all jurisdiction facts related to the jurisdiction asserted." Latana v. Hopper, 102
F. 2d 188; Chicago v. New York 37 FSupp. 150. "The law provides that once State and

Page 19 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

Federal Jurisdiction has been challenged, it must be proven." Main v. Thiboutot, 100S. Ct.
2502 (1980). "Jurisdiction can be challenged at any time." and "Jurisdiction, once
challenged, cannot be assumed and must be decided." Basso v. Utah Power & Light Co. 495
F 2d 906, 910. “Defense of lack of jurisdiction over the subject matter may be raised at any
time, even on appeal." Hill Top Developers v. Holiday Pines Service Corp. 478 So. 2d. 368
(Fla 2nd DCA 1985). "Once challenged, jurisdiction cannot be assumed, it must be proved
to exist." Stuck v. Medical Examiners 94 Ca 2d 751. 211 P2d 389. "There is no discretion to
ignore that lack of jurisdiction." Joyce v. US, 474 F2d 215. "The burden shifts to the court to
prove jurisdiction." Rosemond v. Lambert, 469 F2d 416. "Jurisdiction is fundamental and a
judgment rendered by a court that does not have jurisdiction to hear is void ab initio." In Re
Application of Wyatt, 300 P. 132; Re Cavitt, 118 P2d 846. “Thus, where a judicial tribunal
has no jurisdiction of the subject matter on which it assumes to act, its proceedings are
absolutely void in the fullest sense of the term." Dillon v. Dillon, 187 P 27. "A court has no
jurisdiction to determine its own jurisdiction, for a basic issue in any case before a tribunal is
its power to act, and a court must have the authority to decide that question in the first
instance." Rescue Army v. Municipal Court of Los Angeles, 171 P2d 8; 331 US 549, 91 L.
ed. 1666, 67 S.Ct. 1409. Where a court failed to observe safeguards, it amounts to denial of
due process of law, court is deprived of juris." Merritt v. Hunter, C.A. Kansas 170 F2d 739.
"A departure by a court from those recognized and established requirements of law, however
close apparent adherence to mere form in method of procedure, which has the effect of
depriving one of a constitutional right, is an excess of jurisdiction." Wuest v. Wuest, 127 P2d
934, 937.

Page 20 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

G. The Decision Below Is Incorrect
The Courts has repeatedly instructed lower courts to enforce arbitration agreements
according to their terms. See, e.g., American Express Co. v. Italian Colors Restaurant, 570
U.S. 228,233 (2013); CompuCredit Corp. v. Greenwood, 565 U.S. 95, 98 (2012); AT&T
Mobility, 563 U.S. at 339; Rent-A-Center, 561 U.S. at 67, d. The district court ignored and
overruled that emphatic instruction and the appeals court affirmed and decided the gateway
questions of arbitrability themselves, even when the parties have delegated the resolution of
arbitrability disputes to an arbitrator. The lower court and appeals court assumed jurisdiction
even though petitioner challenged jurisdiction. The petitioner has raised jurisdictional
challenges in appeals to the District Court and Appeals Court who lacked jurisdiction and
never proved jurisdiction on the record and courts have stated, "The law provides that once
State and Federal Jurisdiction has been challenged, it must be proven." Main v. Thiboutot,
100S. Ct. 2502 (1980). "Jurisdiction can be challenged at any time." and "Jurisdiction, once
challenged, cannot be assumed and must be decided." Basso v. Utah Power & Light Co. 495
F 2d 906, 910. “Defense of lack of jurisdiction over the subject matter may be raised at any
time, even on appeal." Hill Top Developers v. Holiday Pines Service Corp. 478 So. 2d. 368
(Fla 2nd DCA 1985). That holding cannot stand.

14. “[Arbitration is simply a matter of contract between the parties.” First Options, 514 U.S.
at 943. Consistent with that principle, parties may “agree to arbitrate ‘gateway’ questions
of ‘arbitrability,’ such as whether the parties have agreed to arbitrate, whether the parties
have entered into an agreement by default or whether their agreement covers a particular
dispute claim or controversy.” Rent-A-Center, 561 U.S. at 68-69. “Just as the
arbitrability of the merits of a dispute depends upon whether the parties agreed to

Page 21 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

arbitrate that dispute, so the question ‘who has the primary power to decide arbitrability’
turns upon what the parties agreed about that matter.” First Options, 514 U.S. at 943.
And if the parties agree to arbitrate arbitrability, that agreement must be enforced
according to its terms under the FAA. See Rent-A-Center, 561 U.S. at 70. In addition,
this Court has mandated that an arbitration agreement should be strictly enforced
regardless of a court’s views of the merits of the claim made by the party seeking to
compel arbitration. For example, in AT&T Technologies, Inc. v. Communications
Workers of America, 475 U.S. 643 (1986), the Court explained that the requirement to
compel arbitration under valid agreements applies “whether the claims of the party
seeking arbitration are “‘arguable’ or not, indeed even if it appears to the court to be
frivolous.” Id. at 649-650. Whatever the merits of the movant’s claim, “[t]he courts have
no business weighing the merits of the grievance,” because “[t]he agreement is to submit
all grievances to arbitration, not merely those which the court will deem meritorious.” Id.
at 650.
15. Despite this Court’s clear holdings that parties are free to delegate threshold disputes of
arbitrability to arbitrators, the district court and the court of appeals refused to enforce the
delegation provision at issue in this case and deciding the arbitrability question by stating
that “there was no agreement between the respondents and the petitioner and there was
no applicable arbitration clause.” See.. .Appendix - C. That holding cannot be reconciled
with the FAA or with this court’s recent U.S. Supreme Court’s decision applying it.

a) First and foremost, the district court and the court of appeals’ decision finds no basis
in the text of the FAA. Section 2 of the FAA establishes that arbitration agreements
“shall be valid, irrevocable, and enforceable, save upon such grounds as exist at law
or in equity for the revocation of any contract.” 9 U.S.C. § 2. That provision does not
authorize judicial interference with arbitration agreements; rather, it simply “places
arbitration agreements on equal footing with all other contracts.” Buckeye Check
Cashing, Inc. v. Cardegna, 546 U.S. 440, 443 (2006). And it is undisputed that one
Page 22 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

party’s belief that another party’s claims that the parties have not entered into an
agreement and that there is no applicable arbitration clause under a contract when
there clearly is an “Arbitration Clause”, there exists current arbitrable issues, is not a
valid basis for overriding the contract entirely. To the contrary, as explained above,
the FAA directs courts to enforce a party’s claim for arbitration “even if it appears to
the court to be frivolous.” AT&T Technologies, 475 U.S. at 649-650. Under that
rule, “if a court determines that there is clear and unmistakable evidence that the
parties agreed to arbitrate arbitrability but nevertheless believes that an underlying
claim is almost certainly not subject to arbitration, the court must still order the
parties to arbitrate arbitrability.” Douglas, 757 F.3d at 468 (Dennis, J., dissenting).
Because the U.S. Supreme Court has already answered most of these questions and
assigned responsibility for resolving arbitrability disputes to the arbitrator, there was
no need for the district court and the court of appeals to render the decisions they
made. The court did so anyway, thereby conflicting with the FAA as written and the
U.S. Supreme Court unanimous decision in Henry Schein, Inc. v. Archer and White
Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8,2019). The district court and the
court of appeals thereby violated the general principle that, “in deciding whether the
parties have agreed to submit a particular grievance to arbitration, a court is not to
rule on the potential merits of the underlying claims.” AT&T Technologies, 475 U.S.
at 649. It cannot seriously be disputed that this is exactly what the district court and
court of appeals did; That is exactly what lower courts should avoid doing in cases in
which the parties have agreed to arbitrate.
b) The district court and the court of appeals decisions are also inconsistent with the
“liberal federal policy favoring arbitration agreements” embodied in the FAA. Moses
H. Cone, 460 U.S. at 24. “By its terms, the [FAA] Statute leaves no place for the
exercise of discretion by a district court or any court, but instead mandates that
district courts or any court shall direct the parties to proceed to arbitration on issues
as to which an arbitration agreement exists and delegates any and all arbitrability
question in relation to the arbitration agreement to be decided by an arbitrator, not the
court.” Henry Schein, Inc. v. Archer and White Sales, Inc., No. 17-1272 (U.S. Sup.
Ct. Jan. 8, 2019). The district court and the court of appeals did not acknowledged
that policy in the decisions below, yet decided to “override the clear intent of the
parties, or reach a result inconsistent with the plain text of the contract, the FAA and
U.S. Supreme Court unanimous decisions.” But again, under the parties’ agreements,
assessing intent and deciding what is or is not such as rather the parties entered into
an agreement by default and tacit acquiescence, performance, its terms, provisions
referencing an Arbitration Clause is “inconsistent with the plain text of the contract”
are tasks for the arbitrator. The district court and the court of appeals usurped that
authority, elevating its own views over the parties’ actual intent as documented in
their agreements to arbitrate arbitrability. To be sure, cases may arise in which a party
seeks to compel arbitration for reasons that consistent with the terms and provisions
of an unilateral performance agreement in writing which incorporates an arbitration
clause which all parties to the agreement have been notified of. Courts must presume
that arbitrators can be trusted faithfully to analyze the scope of the disputed provision
and to refuse to allow arbitration of claims that fall outside it. In any event, courts
“cannot rely on judicial policy concem[s]” to refuse to honor arbitration agreements.
14 Penn Plaza LLC v. Pyett, 556 U.S. 247,270 (2009). A party that proves the
Page 23 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

existence of a valid arbitration agreement is entitled to “an order directing that such
arbitration proceed in the manner providedfor in such agreement.” 9 U.S.C. 4
(emphasis added). And that is true despite the possibility that a court might later
disagree with the arbitrator’s assessment of arbitrability. When the parties have
clearly and unmistakably delegated the question of arbitrability to an arbitrator as is
the case here, the initial decision is the arbitrator’s—and the arbitrator’s alone—to
make. See.. .Dean Witter Reynolds, 470 U.S. at 217 and Henry Schein, Inc. v.
Archer and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8,2019).

H. The Questions Presented Are Important And A Recurring
One That Warrants The Court’s Review In This Case
The questions presented in this case is a recurring one of substantial legal and
practical importance. The Court’s intervention is necessary to safeguard the FAA’s
commitment to the enforceability of arbitration agreements according to their terms and to
provide clarity and uniformity in the law.
16. As demonstrated by this Court’s frequent grants of review in cases involving the FAA,
arbitration is a critical part of our Nation’s legal system. Among other valuable benefits,
arbitration agreements allow private parties to resolve a broad range of disputes while
avoiding the costs associated with traditional litigation in a much shorter time. Parties
frequently seek to maximize those efficiencies by delegating questions of arbitrability to
the arbitrator as well. A court has ‘“no business weighing the merits of the grievance’”
because the ‘“agreement is to submit all grievances to arbitration, not merely those which
the court will deem meritorious.’” Id., at 650 (quoting Steelworkers v. American Mfg.
Co., 363 U. S. 564, 568 (I960)). That AT&T Technologies principle applies with equal
force to the threshold issue of arbitrability. Just as a court may not decide a merits
question that the parties’ have delegated to an arbitrator, a court may not decide an
arbitrability question that the parties have delegated to an arbitrator. This Court has
consistently held that parties may delegate threshold arbitrability questions to the
arbitrator, so long as the parties’ agreement does so by “clear and unmistakable”
Page 24 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

evidence. First Options, 514 U. S., at 944 (alterations omitted); see also Rent-ACenter, 561 U. S., at 69, n. 1. To be sure, before referring a dispute or controvery to an
arbitrator, the court determines whether a valid arbitration agreement exists under 9 U. S.
C. § 2. But if an agreement delegates the arbitrability issue of that question to an
arbitrator, a court may not decide the arbitrability issue. Here a valid performance
agreement exists that involves commerce in fact, has an arbitration clause which
delegates any disputes, claims and controversies in relation to the agreement to an
arbitrator chosen by the petitioner, the non-defaulting party which makes it arbitrable, an
arbitrability question for the arbitrator to decide, not the court. A court may not
determine the arbitrability questions that has been delegated to an arbitrator to decide, in
an agreement in writing based on its own interpretation and ignorance of the arbitration
provision and overriding the agreement by stating, “that there is no applicable arbitration
clause and that the parties did not enter into an agreement,” these are arbitrable disputes,
claims and controversies delegated to an arbitrator/arbitration association. This case well
illustrates that concern.
Petitioners first moved to compel arbitration in 2019. Yet the courts are still
attempting to conflict with the threshold question of who should decide arbitrability
when this court has already made that decision. The District Court and the court of
appeals’ decision has thus effectively nullified the very efficiencies that led the parties to
agree to arbitration in the first place. Absent this Court’s intervention, more parties who
seek to arbitrate will similarly be forced to expend significant time and money simply to
enforce their arbitration clauses as written. The deepening circuit conflict on this question
has also upended parties’ settled expectations regarding the enforceability of arbitration
agreements. Numerous commentators have recognized this court’s unanimous opinion in

Page 25 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

Henry Schein, Inc. v. Archer and White Sales, Inc., No. 17-1272 (U.S. Sup. Ct. Jan. 8,
2019). The facts of this case are again instructive: the judge expressly found that there
was a plausible construction of the parties’ agreement that required arbitration of
respondent’s claims, but the district court and the court of appeals reached the opposite
conclusion on the same record. Unless this Court acts, parties who are similarly situated
who have bargained for arbitration agreements that include delegation provisions may
have their rights violated by lower courts abuse of power who refuse to abide by a higher
courts decision, this court’s decision. That result is contrary to the FAA’s “principal
purpose” of “ensuring] that private arbitration agreements are enforced according to
their terms.” AT&T Mobility, 563 U.S. at 344. As matters currently stand, indisputably
valid delegation provisions in arbitration agreements are always enforceable as an
established nationwide standard for the enforcement of arbitration agreements in circuits.
Indeed, this Court routinely grants certiorari even where a circuit conflict is shallow (or
non-existent) when the question presented concerns the interpretation of the FAA. See
New Prime Inc. v. Oliveira, cert, granted, No. 17-340 (Feb. 26, 2018); Italian Colors,
570 U.S. at 228; AT&T Mobility, supra; Stolt-Nielsen S.A., 559 U.S. at 662. In light of
that practice, this case, which presents a clear and important conflict involving district
court and the fourth circuit appeals court, cries out for the Court’s review.
17. This case is an important vehicle in which to inform the district courts, any other circuit
appeals courts about the FAA statute and agreements delegating arbitrable questions of
arbitrability to be decided by an arbitrator, even validity of the contract and the
arbitration clause. As such, there is no threshold obstacle to reviewing and resolving that
questions in this case. In addition, the courts of appeals have comprehensively analyzed
the arguments for and against the existence of a Delegation clause in an agreement in

Page 26 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

writting to arbitrability. Accordingly, this case provides the Court with an excellent
opportunity to inform these courts and resolve the questions presented. There is no basis
in law or logic for imposing on the FAA and the FAA provides no exceptions to make
claims based off their own opinions when the agreement delegates questions of
arbitrability such as disputes, claims, and controversies related to the agreement to an
arbitrator. The district court and the fourth circuit court of appeals’ contrary decision
was erroneous, and the Court should grant the petition for certiorari to correct that error
and resolve a circuit conflict that is affecting similarly situated parties arbitration
agreements across the country.
This case is an important vehicle in which to inform the district courts and courts of
appeals that once jurisdiction is challenged it must be proven on the record or any orders
thereafter are void for want of jurisdiction.

REMEDY SOUGHT:
Reversal of the District Courts January 29,2020 text order (Doc. 95) and appeals
court May 22, 2020 unpublished opinion affirming district court’s order denying the
Appellants MOTION TO VACATE JUDGMENT/ORDER (Doc. 89), with an order
directing the district court to reopen the case, and to compel arbitration to the arbitration
association specified in Appellants Motion to Compel and to place a stay of the proceedings
for this matter until arbitration has been completed and they have received a copy of the
findings of the arbitrator.

Page 27 | 30

U.S.P.S Tracking No.: EE 332 880 794 US

CONCLUSION
For the reasons specified above, the petition for a writ of certiorari should be granted.
Respectfully Presented,
“Without Prejudice”

Nelson L. Bruce, Propria Persona, Sui Juris
All Natural Rights Explicitly Reserved and Retained
U.C.C. 1-207/1-308, 1-103.6
c/o 144 Pavilion Street
Summerville, South Carolina 29483
ph. 843-437-7901
Email: leonbruce81@yahoo.com

Page 28 | 30

